<html>
<title> - NOMINATIONS OF STEWART A. BAKER AND JULIE L. MYERS</title>
<body><pre>[Senate Hearing 109-327]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-327

           NOMINATIONS OF STEWART A. BAKER AND JULIE L. MYERS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                 ON THE

 NOMINATIONS OF STEWART A. BAKER TO BE ASSISTANT SECRETARY FOR POLICY, 
  DEPARTMENT OF HOMELAND SECURITY, AND JULIE L. MYERS TO BE ASSISTANT 
 SECRETARY FOR U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT OF 
                           HOMELAND SECURITY


                               __________

                           SEPTEMBER 15, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
24-237 PDF                 WASHINGTON : 2006
________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
            Jennifer A. Hemingway, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
         Adam R. Sedgewick, Minority Professional Staff Member
                      Trina D. Tyrer, Chief Clerk





                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     7
    Senator Warner...............................................     9
    Senator Lautenberg...........................................    10
    Senator Voinovich............................................    11
    Senator Levin................................................    22
Prepared statement:
    Senator Akaka................................................    29

                               WITNESSES
                      Thursday, September 15, 2005

Hon. John McCain, a U.S. Senator from the State of Arizona.......     1
Hon. Charles Robb, former U.S. Senator from the State of Virginia     2
Hon. Pat Roberts, a U.S. Senator from the State of Kansas........     4
Stewart A. Baker to be Assistant Secretary for Policy, U.S. 
  Department of Homeland Security................................    12
Julie L. Myers, of Kansas to be Assistant Secretary for 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security..............................................    14

                     Alphabetical List of Witnesses

Baker, Stewart A.:
    Testimony....................................................    12
    Prepared statement...........................................    31
    Biographical and professional information....................    33
    Pre-hearing questions and responses..........................    39
    Post-hearing questions and responses.........................   123
McCain, Hon. John:
    Testimony....................................................     1
Myers, Julie L.:
    Testimony....................................................    14
    Prepared statement...........................................    84
    Biographical and professional information....................    86
    Pre-hearing questions and responses..........................    92
    Post-hearing questions and responses.........................   149
Robb, Hon. Charles:
    Testimony....................................................     2
Roberts, Hon. Pat:
    Testimony....................................................     4

 
           NOMINATIONS OF STEWART A. BAKER AND JULIE L. MYERS

                              ----------                              


                      THURSDAY, SEPTEMBER 15, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:36 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Voinovich, Warner, Lieberman, 
Levin, and Lautenberg.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Good morning. Today the Committee will consider the 
nominations of two individuals to fill key positions at the 
Department of Homeland Security: Stewart Baker to be Assistant 
Secretary for Policy; and Julie Myers to be Assistant Secretary 
for Immigration and Customs Enforcement.
    I know that both nominees are very honored to have with 
them today two of our current colleagues and one of our former 
colleagues to introduce them. I also know that those who are 
undertaking that duty are on very tight schedules. So what I am 
going to do is call on our colleagues for their introductions 
so that they can go on with their day, and then we will resume 
our opening statements and proceed with the hearing.
    We very much appreciate that the distinguished Senator from 
Arizona, Senator John McCain, is here, and I will call on him 
first to introduce Mr. Baker.

STATEMENT OF HON. JOHN McCAIN, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator McCain. Thank you very much, Your Majesty--I mean 
Madam Chairman.
    I am glad to be here, given the bitter partisanship that 
exists on this Committee between you and Senator Lieberman, I 
am pleased to act as mediator here today at this hearing.
    Chairman Collins. I think I will resume my opening 
statement after all.
    Senator Lieberman. I do want to say for the record that I 
did say to Mr. Baker a moment or two ago that until I learned 
that you were introducing him, Senator McCain, his nomination 
looked like it was going to sail through.
    Senator McCain. I thank you both, and I am very pleased and 
proud to be here with our colleague, Senator Chuck Robb, who 
served in the most distinguished fashion, along with Judge 
Silberman, on the Commission on Weapons of Mass Destruction. I 
believe that Commission did an admirable job and provided this 
Nation with much needed information and recommendations as to 
how we can improve our intelligence capabilities to a point 
where Americans can regain confidence in it. I was very pleased 
to serve under the chairmanship of Senator Robb.
    I am really here today not only because I have known 
Stewart Baker for a long time, but because of the outstanding 
job that he did on the Weapons of Mass Destruction Commission. 
He staffed it with ability, making use of his extensive 
background on national security issues. Before that he served 
as the General Counsel for the National Security Agency.
    As my colleagues all know, who have served on commissions, 
the most important aspect of it is valuable use of the 
commission's time. I believe that Stewart provided us with both 
the kind of witnesses, information, and background that was 
necessary for us to be able to make informed conclusions.
    I believe he will do a superb job in the Department of 
Homeland Security. Obviously, there is going to be some 
significant review and scrutiny of the Department of Homeland 
Security. I think he will serve with distinction. I am very 
proud to join my friend, Chuck Robb, here today in strongly 
recommending him.
    I thank the Committee for their courtesy in allowing me to 
be here to introduce him.
    Chairman Collins. Thank you, Senator.
    Senator Robb, welcome back to the Senate. We are very 
pleased to have you here today. Please proceed with your 
remarks.

STATEMENT OF HON. CHARLES S. ROBB, FORMER U.S. SENATOR FROM THE 
                       STATE OF VIRGINIA

    Senator Robb. Thank you, Madam Chairman and Senator 
Lieberman, and my friend and colleague and the Chairman of the 
Armed Services Committee, Senator Warner, and other Committee 
Members as they arrive or will read in detail every word that 
is uttered in this particular hearing to ensure that none but 
the finest serve our government in these critical capacities.
    I am delighted to be able to join my longtime friend and 
former colleague, John McCain. I must thank him. Normally when 
we are together, there is something that is derogatory about 
the Navy/Marine Corps team in which I end up being less 
flattering than I was just a minute ago by the distinguished 
Senator from Arizona.
    I must say that Senator Warner, as you know, does not ever 
have that problem. He is, I think, the only Member of this body 
that served in both of those branches of the service. So I am 
delighted to be here before you.
    I am particularly pleased to join you in formally 
introducing and wholeheartedly recommending Stewart Baker for 
this position with the Department of Homeland Security. As 
Senator McCain just mentioned, we had the opportunity to work 
with Stewart for the better part of a year-and-a-half in 
putting together the report that was the result of a very 
serious effort by some very talented people. And we needed a 
quarterback for the wordsmithing. In particular, we needed 
somebody that could bring together a group of extraordinarily 
talented young lawyers and others who were going to help us 
pull this document together.
    Senator Voinovich, good to see you, sir.
    We sought a number of recommendations for who we might ask 
to serve as general counsel. Everyone that we talked to had a 
number of recommendations, but if you could get Stewart Baker, 
it is really going to be a real plus.
    And until that time, I had only known Stewart Baker by 
reputation. But what a reputation. He proved that time and 
again during his service with us. He was able to reconcile 
disparate views that came up from time to time as to either 
whatever findings we might make or particularly whatever 
recommendations in terms of going forward. And his leadership 
of the drafting team to put together the report that was 
delivered to the President and to Members of Congress was 
superb.
    I would just simply say that I have known many of the 
people in this town, which has an overabundance of over 
achievers. And even in that distinguished group, Stewart Baker 
has always stood out. And he continued to excel in the work 
that he did for us.
    Senator McCain alluded to just a few of the roles that 
Stewart Baker has played over the years in providing leadership 
for a whole variety of national security interests. I do not 
think anyone would take issue with the need at this time for 
really first-rate individuals in providing leadership for the 
Department of Homeland Security.
    The President has nominated someone that I believe, and I 
think all of those, and there are several people who worked 
with and for Stewart Baker, who are sitting behind us today, 
would all agree provided the kind of leadership, the kind of 
direction, and is so articulate, so eloquent that I am 
absolutely certain that he will serve yet again his country 
with distinction in a very challenging time, in a very 
challenging role.
    I will simply conclude by saying thank you for allowing me 
to come back for this privilege. And I hope it will be the 
privilege of the entire Committee to recommend Stewart Baker to 
the full Senate for confirmation so he can get on the job. It 
is clear we have work to do in that area.
    Thank you, Madam Chairman and Members of the Committee.
    Chairman Collins. Thank you very much.
    Senator Robb. Senator Levin and Senator Lautenberg, you 
just arrived. I am delighted to see all of you as former 
colleagues and remaining friends.
    Chairman Collins. Thank you, Senator Robb. Your endorsement 
and that of Senator McCain means a lot to this Committee.
    We would be happy to excuse you both now if you would like 
and thank you for taking the time to be here today.
    Senator Warner. Madam Chairman, before they depart, may I 
associate myself with the remarks by Senator McCain about 
Senator Robb's work on this Commission. We were strong partners 
on a team in the years that he served here in the Senate. That 
will always be the case.
    Thank you for coming up on behalf of such a distinguished, 
well-accomplished nominee.
    Chairman Collins. Thank you, Senator.
    Senator Robb. Madam Chairman, I thank the distinguished 
Senator from Virginia. And with that I will depart and leave 
you to his tender mercies.
    Senator Roberts. Do you mean before I make my statement? Is 
my fellow Marine going to leave me?
    Senator Robb. Madam Chairman, I am not going to depart 
until my former Marine over here makes his statement.
    Chairman Collins. Senator Roberts, we are very pleased to 
have you with us today, the distinguished Chairman of the 
Senate Intelligence Committee.

STATEMENT OF HON. PAT ROBERTS, A U.S. SENATOR FROM THE STATE OF 
                             KANSAS

    Senator Roberts. Actually, that is classified, Madam 
Chairman.
    I do not know how to top John McCain in addressing you. I 
do not know how to top John McCain period. I thought maybe 
exalted leader and protector of western civilization.
    Chairman Collins. That would be adequate.
    Senator Roberts. I appreciate that. Senator Lieberman and 
my distinguished Chairman of the Armed Services Committee, 
Senator Levin, the Inspector General of the entire government, 
and Senator Lautenberg, I am honored to be here today to 
introduce a fellow Kansan whom the President has nominated to 
be the Assistant Secretary of Homeland Security for the Bureau 
of Immigration and Customs Enforcement. That used to be INS, it 
is now called ICE. We do a lot in changing the acronyms around 
here, but we do not want to break the ICE but we sure want to 
fix it.
    Julie Myers is a native of Shawnee, Kansas. She received 
her Bachelor of Arts degree from Baylor University in Texas and 
her law degree from the law school at Cornell.
    Ms. Myers served as the Assistant Secretary for Export 
Enforcement at the Department of Commerce. As Assistant 
Secretary she did develop and coordinate the Department's 
efforts to prevent sanctions violations of U.S. dual-use export 
control laws and the anti-boycott provision of the Export 
Administration Act. No easy task.
    She managed special agents throughout the country and she 
oversaw the Export Enforcement's International Attache Program.
    Ms. Myers served as the Chief of Staff of the Criminal 
Division for Assistant Attorney General Michael Chertoff at the 
Department of Justice, and as the Deputy Assistant Secretary 
for Money Laundering and Financial Crimes at the Department of 
Treasury. There she fought against the financiers of terrorism 
and implemented a national strategy to combat money laundering.
    She also served as an Assistant U.S. Attorney in the 
Eastern District of New York, where she prosecuted financial 
criminals, and as a deputy to Independent Counsel Kenneth 
Starr.
    Madam Chairman, my observation is that Kansas has been the 
home of a great many public servants, especially in law 
enforcement. Who can forget the legends of Wyatt Earp and Bat 
Masterson in my hometown of Dodge City. Their efforts really 
helped clean up my hometown and the rest of Kansas. I knew 
Wyatt Earp and Bat Masterson, and Julie could ride shotgun with 
these guys anytime. I am sure that she, armed with her 
knowledge and passion for our judicial system, will enforce 
immigration and customs laws and policies with a firm and fair 
hand.
    I think it is a privilege for me to sit by this young lady. 
She is getting married the day after tomorrow, so I am very 
hopeful we can expedite her confirmation and get her and John 
to the church on time.
    Thank you, ma'am.
    Chairman Collins. Thank you, Senator. Your endorsement 
means a great deal to this committee.
    I know that you have an extremely busy schedule, so if you 
need to leave right now, and take Senator Robb with you, that 
would be acceptable to this Committee.
    Senator Roberts. Thank you very much.
    Chairman Collins. We are now going to resume opening 
statements.
    Secretary Chertoff has said that the Department of Homeland 
Security was not created merely to be a big tent under which a 
lot of different organizations would be collected. It was 
created to put together a dynamic organization that would 
pursue missions in furtherance of homeland security and that 
would bring together all levels of government in order to 
execute those missions in an integrated and comprehensive 
manner. This Committee envisioned precisely that type of multi-
jurisdictional integration when it created the Department of 
Homeland Security.
    We have just observed the fourth anniversary of the event 
that led us to undertake such a profound reorganization of 
government.
    Yet over the last two weeks we have seen a significant 
failure in the emergency preparedness and response system that 
the Department was supposed to strengthen. Hurricane Katrina 
was a natural disaster, but the devastation, suffering, and 
deprivation this powerful storm left in its wake was compounded 
by the failure of all levels of government--local, State, and 
Federal--to prepare and respond in a unified, integrated way.
    Two months ago, Secretary Chertoff released the 
Department's Second Stage Review, a document that seeks to 
refine and reconfigure the Department in light of what has been 
learned during its first 2 years of operations.
    Among the changes proposed by the Secretary is the creation 
of a Directorate of Planning and Policy. The intent of this new 
directorate would be to develop a more comprehensive approach 
to policy and planning, and to bring the various components of 
DHS, as well as its local and state partners, together under a 
unified vision.
    I support the establishment of this office as the focal 
point of policy planning within the Department. I think the 
Department's recent handling of Hurricane Katrina indicates 
that need for more coordination, both within the Department and 
also with its State and local partners.
    As Assistant Secretary for Policy, Mr. Baker would be 
directly responsible for establishing priorities and for seeing 
that they are implemented on a wide range of homeland security 
issues. This is obviously a considerable challenge for a 
department as large and wide-ranging as the Department of 
Homeland Security, and Mr. Baker brings strong credentials to 
the task.
    As has been indicated, he recently served as the General 
Counsel of the Commission on Intelligence Capabilities of the 
United States Regarding Weapons of Mass Destruction, where he 
headed the drafting team for the Commission's report. He served 
formerly as the General Counsel of the National Security Agency 
and as the Deputy General Counsel of the Department of 
Education.
    Earlier in his career, Mr. Baker served as a law clerk to 
Justice John Paul Stevens.
    I am pleased to note that Mr. Baker lived in Portland, 
Maine, while clerking for the esteemed Maine jurist, Judge 
Frank Coffin.
    Nothing is more crucial to the safety of the American 
people, our economy, and the principles upon which our Nation 
stands than the borders that are closed to our enemies yet open 
to our friends. The United States has some 6,000 miles of 
international border, some 600 of which are in my home state of 
Maine. I know full well both the vulnerability that these vast 
borders present and their importance to commerce and to our 
society.
    Effective immigration and customs enforcement is essential 
if this balance among protection, commerce and values is to be 
struck. The State, local and Federal partnership we envision 
also is essential. When we speak of DHS components that have 
new and challenging homeland security missions to carry out in 
addition to vital traditional missions, and that we must forge 
a real partnership with State and local authorities, ICE comes 
immediately to mind.
    From fraudulent identification to illegal immigration, from 
cargo container security to trade in counterfeit consumer goods 
to finance terrorism, this Committee has investigated and 
examined many of these new challenges.
    In addition to ICE's responsibility for enforcement of 
Federal immigration and customs laws, its expanded mission 
includes the prevention of acts of terrorism by targeting the 
people, money, and materials that support terrorist activities. 
ICE actively seeks to combat drug trafficking, human smuggling, 
and international trade in child pornography, as well as 
terrorism. That ICE is the largest investigative arm of the 
Department is evidence of the scope and importance of its broad 
mission.
    Julie Myers would bring experience and the confidence of 
Secretary Chertoff to this mission. She has served as an 
Assistant Secretary of Commerce for Export Enforcement, as the 
Deputy Assistant Secretary for Money Laundering and Financial 
Crimes at the Department of Treasury, and also worked as an 
Assistant U.S. Attorney in the Eastern District of New York.
    Like Mr. Baker, Ms. Myers comes before this Committee at a 
time when the position she seeks may be on the brink of a 
substantial change. As part of the Second Stage Review, 
Secretary Chertoff has also proposed breaking up the Border and 
Transportation Security Directorate and splitting ICE and 
Customs and Border Protection into two independent units that 
will report directly to the Secretary. I would be interested in 
hearing Ms. Myers' thoughts on this proposed reorganization.
    I want to thank both of the nominees for their past service 
to their country and for their willingness to continue to serve 
in very challenging capacities. I look forward to questioning 
them today.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much very, Madam Chairman. I 
join you in welcoming Stewart Baker and Julie Myers to the 
hearing today.
    This Committee authored the original legislation to create 
the Department of Homeland Security, so we have a real and 
personal interest in seeing the Department realize its full 
potential. Both of the positions for which you have both been 
nominated present great opportunities and great challenges. I 
would like to briefly touch on a few of the concerns that I 
have about issues facing both of these offices.
    First to Mr. Baker. When we created DHS, one of the guiding 
principles was to bring greater cohesion to Federal homeland 
security missions that were then splintered among many 
different agencies. I have been thinking in the days since the 
unsatisfactory performance post-Hurricane Katrina, as people 
are beginning to pick the Department apart, that we ought to 
remind people why we created the Department. It is because 
there was disorganization before.
    And the reaction to what seems to have been an inadequate 
performance is not to go back to disorganization. It is to fix 
the organization, I think, to make it work better.
    In the early years of the Department clearly, and in some 
ways understandably, the initial goal of bringing all of those 
disparate missions together has not been fully realized, not 
realized as we had hoped. The Secretary has lacked the central 
staff and structure to chart Department-wide strategy and 
policy, which could then be carried out in a coordinated way by 
the many components of the Department.
    This shortcoming has come to the forefront in a number of 
recent examinations of the Department, including an oversight 
hearing that we, in this Committee, held in January of this 
year.
    Now Secretary Chertoff, in conducting his own internal 
review of the Department, has concluded that the Department 
needs a central policy shop. Mr. Baker, of course, has been 
nominated to lead that office for the entire Department. 
Ultimately we know Secretary Chertoff seeks legislation to 
elevate the office to become an under secretary for policy, 
overseeing not only the immediate office but also offices for 
international affairs, strategic planning, private sector, 
immigration statistics, as well as a new coordinator for asylum 
and refugee issues.
    I believe the creation of a central policy office is a real 
step forward, and certainly a step toward setting clear 
priorities for the Department and realizing some of the 
potential we envisioned when we created the Department.
    The Department again, perhaps understandably, in its early 
months has often been driven by the crisis of the day. It is 
essential therefore for this Department particularly to build a 
long-term strategic planning capability and to develop policies 
that will set clear enforceable priorities for many of the 
components of our homeland security effort.
    That effort will transcend any one purpose or office at the 
Department of Homeland Security. But the new policy office 
will, I think, be an essential core element to our building 
those capacities.
    I have some questions about some of the details of the 
proposed new policy, and I am concerned that the Administration 
has not proposed adequate staffing for the new office that Mr. 
Baker would hold, given the breadth of issues that it must 
address. I am thinking particularly in the area of immigration 
policy. I will take the liberty to ask some questions of Mr. 
Baker on that.
    For Ms. Myers, the Bureau of Immigrations and Customs 
Enforcement, ICE, is a vitally important agency with a daunting 
combination of missions. The defense of this Nation from 
terrorist attacks should be the highest priority and the 
Agency's Immigrations and Customs investigators have an 
important role to play in cracking down on human smuggling and 
money laundering activities that benefit the terrorists.
    ICE was created again through an internal reorganization 
after the new Department itself was established. The new Agency 
required integrating the missions and cultures of what were 
once core customs programs at Treasury and core immigration 
programs at INS. The Agency, I think by most accounts, has 
gotten off to a rough start, in part because planning errors 
led to big budget shortfalls for its operations.
    While we have been given assurances that these management 
issues are being resolved, I do want to note that the concerns 
still abound, including I must say, among some employees of ICE 
who believe that the current structure is hampering their 
ability to do their work.
    Indeed, as you probably know, Ms. Myers, there is an active 
debate as to whether the decision to split ICE from Customs and 
Border Patrol is fundamentally flawed and ICE should now be 
recombined with Border Protection.
    Although Secretary Chertoff did not recommend that as part 
of the Second Stage Review, I understand this is not 
necessarily a closed issue within the Department, and I want to 
say to you that it is not a closed issue either with Members of 
the Committee or Congress, including myself.
    The Homeland Security Act requires that the Assistant 
Secretary for this post have a minimum of 5 years of 
professional experience in law enforcement and 5 years of 
management experience, both being important, as you can tell 
from what you know and what I have said.
    You bring to this nomination a very impressive record. You 
are a very accomplished individual. I do want to say to you 
that I am going to ask you about your management experience and 
ask you to make the case for why you believe you satisfy the 
requirement of the 5 years of management experience that is 
uniquely required by statute for this position.
    I want to say just a final brief word, and I am not going 
to go until the length that I have in my statement because I 
have gone on long enough. ICE is responsible for, as you know, 
apprehending undocumented immigrants, detaining and deporting 
them. This is a very critical and difficult mission, also 
requiring priority setting.
    ICE has tried to focus its enforcement resources on 
detaining high priority aliens such as criminal offenders and 
those who work at sensitive facilities like airports or nuclear 
power plants. There are approximately 10 million undocumented 
immigrants in the country and 18,000 detention beds. Clearly, 
we have got to utilize those beds for those who pose the 
greatest risk to the community and the highest probability of 
flight.
    For many of the other individuals who are apprehended and 
who must await a hearing before an immigration judge, I believe 
we should utilize supervised release programs as alternatives 
to detention.
    The final point I made in the meeting I had with you, the 
Commission on International Religious Freedom, on which I was 
pleased to play a part along with our former colleague Don 
Nickles in creating, put out a report earlier this year that 
was very critical of our handling, the government's handling, 
this section's handling, of those who seek asylum in this 
country based on religious bigotry, or worse torture, in the 
countries from which they come.
    And I hope that if you are confirmed for this position that 
you will take a close look at that and see if you cannot do 
what we promise, including on the base of the Statue of 
Liberty, to welcome those who seek asylum for exactly those 
reasons in this country of liberty.
    Thank you very much. I look forward to the questioning.
    Chairman Collins. Thank you.
    Do any of my colleagues have comments they would like to 
make? We were not clear about that in informing your staffs, so 
if someone does have some opening remarks, I would call on them 
to make their remarks at this time.
    Senator Warner. Madam Chairman, if I could just exercise a 
few minutes?
    Chairman Collins. Senator Warner.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. First, I want to say that these two 
individuals come before this Committee and the Senate as a 
whole with extraordinary credentials of achievement. It is a 
great credit to the Administration to continue to attract 
people of this standing to continue public service and 
participate in it.
    Also Judge Chertoff, I call him judge because I was a law 
clerk to a circuit judge like you were, Mr. Baker, in my 
lifetime, both of you. And I have high regard for him. And I 
would hope that as we look at this new Agency, largely created 
here in this Committee by these two distinguished leaders that 
preside over the Committee today, we may do the fine-tuning 
here and there. But I would be hesitant to try and do a major 
dismantling of it at this time, is my thought on it.
    But Mr. Baker, looking back over your credentials, I would 
urge that one of your first priorities be to look at the 
control of the expenditures and the accountability of the 
expenditures. We are really without precedent, the amount of 
money that has been appropriated. It is going, I guess, 
primarily to FEMA, but other institutions in there.
    Do watch that because that will undermine the credibility 
of the future of the Agency faster than anything else with 
regard to Congress.
    To you, Ms. Myers, what a marvelous career. I had a burst 
of exceptional service at a young age, but you do not worry 
about it a bit. As a former U.S. Assistant Attorney, I would 
like to take your case if there is any question about the 
manager in which you have achieved. I bet we can meet that 5-
year statute.
    Good luck to both of you. I thank the Chairman and the 
Ranking Member.
    Chairman Collins. Thank you, Senator. Are there any 
additional statements?
    Senator Lautenberg. Just a quick comment.
    Chairman Collins. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Madam Chairman, with all of the 
laudatory comments made about these two individuals, my 
presumption is that you will be confirmed and that we will have 
a chance to ask a few questions that will challenge--sorry, it 
is not pointing the right way. And I come out of the technology 
business.
    But I do want to say that I am pleased that we are taking a 
look toward the inside of the Department in each of your 
respective or prospective assignments.
    And I think that it is fair to say that while marvelous 
work was done to get this Department established, and I commend 
Chairman Collins and Senator Lieberman for the pressure they 
put on all of us and Members of the Committee to get the job 
done. It was done hurriedly, not wastefully, I believe.
    However, I think it is fair to say that a transaction as 
complicated as the creation of this Department will still 
have--I will call it a gestation period--for some time. Part of 
what creates legislation and change here is reaction to things 
in the past and what happened and where did something go awry. 
To see a resignation by the head of a major agency in the midst 
of crisis has us kind of--has me anyway, sitting back and 
taking a look and say hey, why did this happen?
    Though the individual, Mr. Brown, was vetted by this 
Committee and I think took a pretty good look at his career and 
his qualifications, nevertheless it seems that he was over his 
head.
    And I am not sure that keeping the head above water in this 
case is actually an attainable condition. Because when you--and 
I will use the term loosely--crash together so many 
departments, so many people, so many assignments, so many 
variables in the world in which we are living--we are beginning 
to discover that more and more--that I think that we will be 
taking and continue to take long looks at what the Department 
is going to finally look like.
    I commend the decision to create a policy position and to 
get the ICE position squared away. In my mind, it raises kind 
of a generic question. At what point does DHS have law 
enforcement, the enforcement arm of the Department, in the 
appropriate house to get that done? Because these assignments 
can often be given out to other departments that have a little 
narrower but more manageable--I found in my business experience 
that smaller units were always more efficient and more 
effective.
    So we will watch with interest. And I think that in your 
case, each of you will be part of not only better management 
but also create policy, opportunities to engage in policy 
decision and make recommendations from your respective perches, 
if I can use the term, to make recommendations as to what you 
think might help us run this giant department more efficiently.
    I thank you, Madam Chairman.
    Chairman Collins. Thank you, Senator. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Madam Chairman, for holding 
this hearing today and considering these two nominees for 
positions in the Department of Homeland Security.
    Ms. Myers and Mr. Baker, I would like to thank you both for 
your service and your willingness to continue serving in 
appointed positions. I recognize the sacrifice that you and 
your families have made. If there are family members present, I 
want to thank them for their sacrifice so that you can serve.
    Madam Chairman, the events of the last several weeks 
dramatically highlight the need to have highly competent men 
and women in the senior positions of our government. They must 
be leaders with top-notch experience, managers with good 
interpersonal skills including having keen judgment, and 
individuals with policy expertise in the areas in which they 
will be working.
    These two nominees also have an additional challenge. The 
Department of Homeland Security is still trying to come 
together as a cohesive entity 2 years after its establishment. 
The new Secretary recognizes that and has established his 
recommendations for the Second Stage Review.
    He has recommended a policy office. Mr. Baker, you have 
been nominated to lead this office. I was encouraged by your 
resume and pleased to hear all of the wonderful comments about 
your experience. But you have some very serious challenges in 
this Department.
    Yesterday, I said that it is time for us to get into the 
bowels of the Department of Homeland Security. One method of 
doing that is making sure that you have the tools you need to 
get the job done. Part of that is people. Do you have a 
sufficient number of people to get the job done? The other part 
of that is the competency of the individuals in the respective 
departments.
    I have learned from my past experience as a mayor and 
governor that you are only as good as the team that you have. 
Far too often I have noticed in the Federal Government, we ask 
people to do the job and then do not give them the people the 
training they need to do the job. We must have good and 
competent individuals for positions of such importance.
    This is a very serious matter that we are undertaking; one 
that directly affects national security. I am concerned about 
where we are today. I am hopeful that under the direction of 
Secretary Chertoff, the Department will move forward and get 
the job done for the American people.
    Thank you.
    Chairman Collins. Thank you. Senator Levin.
    Senator Levin. Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    Both of our nominees have filed responses to biographical 
and financial questionnaires, answered pre-hearing questions 
submitted by the Committee, and had their financial statements 
reviewed by the Office of Government Ethics.
    Without objection, this information will be made part of 
the hearing record with the exception of the financial data 
which are on file and available for public inspection in the 
Committee offices.
    Our Committee rules require that all witnesses at 
nominations hearings give their testimony under oath. I would 
ask the nominees to please stand and raise your right hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Baker. I do.
    Ms. Myers. I do.
    Chairman Collins. You may be seated.
    Mr. Baker, I understand that you have family members 
present, and I would invite you to introduce them to the 
Committee.
    Mr. Baker. I would be delighted to. My daughters Katie and 
Meg are here, both from other cities. And I am delighted to 
have them here.
    Chairman Collins. We welcome you. We are delighted to have 
you here, as well.
    I understand, Ms. Myers, that you also have some family 
members present?
    Ms. Myers. That is correct, Chairman. I am pleased to 
introduce my parents, David and Kathy Sinzheimer, who are in 
from Kansas City; my fiance, John Wood; and my future in-laws, 
Bob and Elizabeth Wood.
    Chairman Collins. Are they all here for the wedding 
preparations, as well?
    Ms. Myers. They are. This coincided very nicely for that.
    Chairman Collins. We welcome them, also.
    Mr. Baker, I would ask that you proceed with your 
statement.

TESTIMONY OF STEWART A. BAKER,\1\ TO BE ASSISTANT SECRETARY FOR 
          POLICY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Baker. Thank you, Madam Chairman and Members of the 
Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Baker appears in the Appendix on 
page 31.
     The biographical and professional information appear in the 
Appendix on page 33.
     The pre-hearing questions and responses appear in the Appendix on 
page 39.
     The post-hearing questions and responses appear in the Appendix on 
page 123.
---------------------------------------------------------------------------
    It is really an honor to have been nominated for this 
position. But I have to say that it is a daunting prospect. I 
think Senator Voinovich accurately stated how high the stakes 
are. The Department is still inventing itself. We will have to 
invent the Policy Office, as well. And we are doing that 
against a backdrop of terrorists who are determined to kill as 
many Americans as they can, and a natural disaster that 
compares to the Chicago fire and the San Francisco earthquake, 
the kind of thing you hope only happens once in a 100 years.
    It shows what the stakes are for this job and suggests that 
any mistake is going to be costly. The job description ought to 
require perfection, and I am quite keenly aware that I am not 
perfect. And even if I were not aware of that, both of my 
daughters, as daughters will, are glad to remind me.
    So the real question, I think, is why you would want to 
take a job where you are guaranteed to make mistakes that will 
have that kind of cost? I think the best answer to that is 
something that happened to me after I agreed to do this. When 
he heard it, the guy who has the office just two doors down 
from me gave me an E-mail from his best friend. It was an 
ordinary E-mail about his best friend's wedding, saying 
``Tuxedos for my groomsmen will be supplied by Zeller Tuxedo, 
which has locations all over the Tri-state area. See the 
website. Just go to one of the locations and get fitted. Do 
this please by September 20.''
    About 5 or 6 minutes after he got that E-mail, my friend 
sent back a note teasing Peter Frank, who sent it to him, over 
having lost his wallet at the bachelor party.
    The return E-mail never arrived. Because in that 5 or 6 
minutes, American Airlines Flight 11 hit just one flight above 
Peter Frank's office. Instead of a wedding, of course, there 
was only a memorial service.
    We have all been touched by this event, and we face a long 
struggle with an enemy that wants to have Peter Franks every 
day die in this country.
    If you want to be part of that struggle, it seems to me, 
the Department of Homeland Security is the place to be. I do 
want to be part of that struggle. And that is why I am so 
thrilled to have the opportunity to join this Department.
    I will not dwell on my professional background. It is in my 
prepared statement. I would be glad to talk about some of the 
ideas that I have for ways in which the Policy Office could, as 
Senator Lieberman suggested, help to unify the different 
components of the Agency. I think that is a vital task for this 
office.
    Instead of dwelling on either of those things, I would just 
like to say two things about the people I will be working for. 
When I talk to young associates who are thinking about going 
into the government, I tell them it really does not matter what 
the position description is. It does not matter what your title 
is going to be. You really only have to ask, ``Do you respect 
and like the people that you are going to work for? '' If you 
do, you are going to have a great time and you are going to 
accomplish a lot. If you do not, it will be a miserable 
experience.
    I applied that test when I took this job, as well. I have 
known Michael Chertoff for a decade. I like him. I respect him. 
He is a fine leader, a terrific intellect.
    I have seen Michael Jackson tested in the last few weeks, 
and I have great respect for him, as well. So I am delighted to 
be joining their team.
    And I guess last, I would say I am delighted to be working 
with this Committee, which has a great tradition of respect for 
each other, and an assumption that everyone is working for the 
same goal, the safety of the American people. And I can assure 
you, I will treat all of you with precisely that attitude. If 
you have any questions about any policy that we may adopt or 
may be thinking about or that you think we should adopt, just 
call me. I am glad to talk to any of you in the same spirit in 
which this Committee operates. Thank you.
    Chairman Collins. Thank you. Ms. Myers.

 TESTIMONY OF JULIE L. MYERS,\1\ TO BE ASSISTANT SECRETARY FOR 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Myers. Thank you, Chairman Collins, Senator Lieberman, 
distinguished Members of the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Myers appears in the Appendix on 
page 84.
     The biographical and professional information appear in the 
Appendix on page 86.
     The pre-hearing questions and responses appear in the Appendix on 
page 92.
     The post-hearing questions and responses appear in the Appendix on 
page 149.
---------------------------------------------------------------------------
    I am honored and humbled to be before you today, to see the 
confidence that Secretary Chertoff and the President have shown 
in me by recommending me for the position of Assistant 
Secretary for Immigration and Customs Enforcement.
    ICE is very fortunate to be staffed with tremendous law 
enforcement agents, lawyers, analysts and support staff. I have 
had the privilege of working with them as an Assistant U.S. 
Attorney in Brooklyn, as a Deputy Assistant Secretary for Money 
Laundering at the Treasury Department, as Chief of Staff for 
Michael Chertoff, and as Assistant Secretary for Export 
Enforcement at the Commerce Department. If confirmed, it would 
be my privilege to work with them again on our most important 
objective.
    That objective could not be more important. ICE plays a 
vital role in ensuring that the American people are kept safe 
by ensuring that our facilities, our Federal facilities, are 
secure, and that our customs and immigration laws are 
effectively enforced.
    Collaborating with other agencies, ICE plays an essential 
role in preventing terrorist attacks by preventing exploitation 
of our customs and immigration systems, but by doing so in a 
way that ensures confidence in our immigration system and our 
rule of law.
    With respect to ICE's immigration enforcement mission, the 
Agency operates amidst immense challenges. According to some 
estimates, there are approximately 11 million illegal aliens in 
the United States and approximately 500,000 more coming every 
year.
    The vast majority of these aliens come, understandably, 
because the promise of America is so great. And there can be no 
question that the process of entering and gaining citizenship 
is long and frustrating for many of these individuals.
    But inevitably, a few illegal aliens come for far worse 
reasons. They break one law by entering this country in order 
to break more laws once they are here: To exploit children, to 
smuggle more people into the country, sometimes in the most 
inhumane circumstances possible, to deal in narcotics, and yes 
to commit acts of terrorism. First and foremost, ICE is 
committed to finding, prosecuting, and removing these aliens. 
If confirmed, this will be my top priority.
    But ICE also has a more general responsibility to ensure 
that those who do seek to play by the rules are afforded and 
ensured that they get a fair and respectful treatment. I am 
talking about newly naturalized citizens who apply for 
applications to sponsor their relatives for admission, those 
persecuted in their home countries who apply for asylum and 
work their way through the review process, and employers that 
refuse to hire an individual without proper documentation.
    We must find a way to honor our American tradition of 
welcoming newcomers from other lands while at the same time 
addressing the weaknesses in our immigration system. And strong 
and effective enforcement of our immigration laws is the way to 
do just that.
    As the senators noted, ICE's immigration mission is only 
one part of its overall role. ICE has many other critical 
enforcement missions. If confirmed, I will work to ensure that 
these missions also receive priority.
    I am particularly interested in ICE's significant role in 
money laundering, building upon the work that they have done to 
ensure that criminals and terrorists do not execute schemes 
through the financial systems to cause us harm. And also to 
focus on sensitive technologies.
    With respect to my background and experience, I have always 
been interested in law enforcement and was privileged to serve 
as an Assistant U.S. Attorney in Brooklyn. Since that time, I 
have worked continuously in the field of law enforcement, in 
many of the areas that relate to ICE's core mission. I have 
tried criminal cases, and worked on everything from simple 
smuggling cases to complex money-laundering investigations to 
complex security fraud cases.
    I have worked with the former INS system, trying to get 
criminal witnesses paroled into this country, worked with them 
on setting detainers, and worked with them in many other 
matters.
    Since I have joined the Administration, I have had the 
privilege to work on issues that intersect with ICE's law 
enforcement mission at the Treasury, Commerce, and Justice 
Department.
    With respect to my management experience, my key management 
experience lies in my experience as Assistant Secretary at the 
Commerce Department, the Chief of Staff for Michael Chertoff, 
and as a Deputy Assistant Secretary at the Treasury Department.
    At the Commerce Department, I am pleased to say that my 
management style produced results. I was able to focus and 
target the agents on working on the most strategic violations, 
those that involved violations of our export laws that concern 
national security. Under my leadership, the Agency more than 
doubled its civil enforcement cases, as well as brought some of 
its most significant criminal cases, such as the Asher Karni 
smuggling investigation.
    I would be pleased to answer any questions you have and I 
welcome, as Stewart Baker said, this immense challenge. Thank 
you.
    Chairman Collins. Thank you, Ms. Myers.
    I am going to start my questioning with the three standard 
questions that we ask of all nominees.
    First, is there anything that you are aware of in your 
background which might present a conflict of interest with the 
duties of the office to which you have been nominated? Mr. 
Baker.
    Mr. Baker. No, I am not.
    I have gone through a recusal process with respect to past 
representations that is satisfactory to the Office of 
Government Ethics, and I will adhere to those rules. But there 
is no barrier to carrying out my duties.
    Chairman Collins. Ms. Myers.
    Ms. Myers. No, I am not aware of any problems there.
    Chairman Collins. Second, do you know of anything personal 
or otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated? Mr. Baker.
    Mr. Baker. No.
    Chairman Collins. Ms. Myers.
    Ms. Myers. No.
    Chairman Collins. Third, do you agree without reservation 
to respond to any reasonable summons to appear and testify 
before any duly constituted committee of Congress, especially 
this one, if you are confirmed? Mr. Baker.
    Mr. Baker. Yes, I will.
    Chairman Collins. Ms. Myers.
    Ms. Myers. Yes, Chairman Collins.
    Chairman Collins. We will now begin a round of questions 
limited to 6 minutes each.
    Ms. Myers, you talked about your management experience but, 
like Senator Lieberman, this is an issue that I want to pursue 
further with you. If confirmed, you will head the second 
largest investigative agency in the entire Federal Government. 
The Agency that you have been nominated to lead has more than 
20,000 employees and a budget of approximately $4 billion.
    The Homeland Security Act specifically requires that the 
head of ICE have a minimum of 5 years management experience. In 
writing this law, this Committee did not put in similar 
requirements for many of the other positions but recognized 
that this agency is a huge management challenge.
    It is evident from looking at your resume and hearing your 
testimony that you have considerable legal experience. You have 
terrific experience in trying cases, and in investigations. But 
I still have not heard very much about direct management 
experience. Could you expand on the management role that you 
played, specifically the number of employees you supervised, 
the management challenges that you have taken on including 
oversight of budgets? I am particularly interested in your 
response given ICE's financial and management challenges.
    Ms. Myers. Absolutely, Chairman Collins.
    With respect to my work as Assistant Secretary at the 
Commerce Department over export enforcement, I supervised a 
nationwide law enforcement agency that had field offices in 
nine cities, as well as an international presence, with five 
attaches overseas. In that capacity, I had direct 
responsibility for a budget of approximately $25 million and 
approximately 200 full-time employees.
    My experience at the Commerce Department helped me develop 
a style for managing a regional law enforcement program. In 
other words, how do you effectively manage folks who are in San 
Francisco if you are here in Washington, DC? We were able to do 
this by ensuring that all of the employees throughout the 
Agency knew what the mission was, what the most important 
things to accomplish would be, and how they would be rewarded. 
I would seek to take this same management style and apply it at 
ICE.
    With respect to my work at the Department of Justice, I 
served as Chief of Staff for Michael Chertoff. The Criminal 
Division has approximately 500 lawyers and a budget of over 
$120 million. In my capacity as Chief of Staff for Michael 
Chertoff, I directly supervised the Office of Administration, 
which oversaw the budgets. I had a lot of experience at that 
time working with a tight budget, looking at where there are 
difficulties and problems and making sure we squeezed the most 
out of our very limited Federal resources.
    In addition, as Chief of Staff I had a bird's eye view not 
only into the Secretary's management style but also into how 
different deputy assistant attorney generals supervise cases 
and run things in a way that is most effective.
    I believe it is fair to say that it was based on my 
performance at the Justice Department that Secretary Chertoff 
recommended me for this job and believe that I have sufficient 
qualifications for this job.
    At the Treasury Department, I was Deputy Assistant 
Secretary for Financial Crimes. In that capacity, I directly 
supervised two sections of the Treasury's Office of Enforcement 
at that time, the Counter Narcotics Section and the 
International Money-laundering Section. There were 
approximately 14 permanent FTEs in those sections.
    We also had broader oversight for many of the programs that 
were in legacy of Customs, FinCen, and other parts of the 
Treasury Department. So I directed broad and large programs in 
those other sections, although I did not do the day-to-day or 
case review on all of them.
    Prior to that I was an Assistant U.S. Attorney in the 
Eastern District of New York. In that capacity I had the 
ability to manage cases and supervise agents and junior 
Assistant U.S. Attorneys on occasion.
    I believe together all of this gives me the minimum 
management experience that is required under the statute. But 
let me just add, I believe that my management style has worked 
at the Commerce, Justice, and Treasury Departments, and I will 
do all that I can to ensure that the ICE employees, if 
confirmed, have a clear sense of mission and exceed in their 
very daunting goals.
    Chairman Collins. Thank you.
    Mr. Baker, there are obviously a number of questions that 
have arisen in the wake of Katrina about the Department's 
emergency preparedness and response. If you are confirmed, what 
role would you envision for the policy office in improving 
emergency preparedness and response, whether it is to a natural 
disaster or a terrorist attack?
    Mr. Baker. Thank you, Madam Chairman.
    I think that is clearly one of the top issues that the 
Policy Office is going to have to face. I have already begun 
talking to people in the office about beginning a policy review 
of what can be done, what lessons have been learned from the 
events surrounding Katrina.
    We obviously cannot be satisfied with what happened. There 
are any number of lessons to be learned. And they are lessons 
that we are going to have to apply, as you say, in the event of 
an attack on one of our cities with a nuclear weapon or a 
biological weapon that raises many of the same evacuation and 
other issues.
    So I expect to play a central role in reviewing department-
wide policies for preparedness.
    Chairman Collins. Senator Lieberman.
    Senator Lieberman. Thanks very much, Madam Chairman.
    Mr. Baker, as I indicated in my opening statement, I am 
concerned about the Administration's intentions with regard to 
staffing the Policy Office you are nominated to head, and the 
new directorate. The intention seems to be largely to transfer 
employees from existing positions rather than creating new 
ones.
    I think the Department is pressed and the Department's 
limited policy planning thus far will put a lot of pressure on 
your office. And I am concerned that whether, in giving you 
this big new job, we will not be giving you the staff to carry 
out all that has to be done effectively. Do you share my 
worries?
    Mr. Baker. I do not think there is anyone who has taken a 
job in government who has not thought they could do a better 
job with more people.
    Senator Lieberman. This is true.
    Mr. Baker. In fact, I have put off until about now the 
planning for exactly how we might staff this office. I do not 
think any final decisions are made on staffing. I intend to sit 
down with the Secretary and the Deputy Secretary and go through 
the list of functions. We certainly will have authority to hire 
more people. The question is how many more people, how many 
people we can hope to get as detailees.
    But I will certainly make the case aggressively for a staff 
that allows us to do this effectively.
    Senator Lieberman. Good, and please remember, if you are 
confirmed for this position, that you have a Committee here 
that wants this Department to work and is prepared to be, so 
far as you make a good argument, your advocate for the adequate 
support that you need.
    Ms. Myers, I appreciate that Senator Collins asked you the 
same question that I raised in my opening statement about the 
5-year requirement. It is unusual for there to be that kind of 
explicit requirement, and it was put in presumably, I am sure, 
because of the concern about the management challenges there.
    So I think we do have a responsibility to ask you about it. 
I appreciate your answer. You have mentioned, I believe, four 
positions that you previously held that you believe satisfy the 
5-year management requirement. For the record, now or later, 
can you tell me how long you were in each? Do you remember it 
now?
    Ms. Myers. Senator, I believe I could come fairly close 
right now.
    Senator Lieberman. I will not hold you to the detail if you 
want to correct it afterward. So give it a try now.
    Ms. Myers. In my current position, which I did not mention 
in my response to the Chairman's question, as Special Assistant 
to the President for Personnel, I do manage a small staff which 
has varied up to three deputies as well as support staff and 
interns. I have held this position since mid-November 2004 when 
I was asked to come over to the White House and serve in that 
position.
    Senator Lieberman. So that is about 10 months?
    Ms. Myers. That is correct, Senator.
    With respect to my position as Assistant Secretary for 
Export Enforcement, I was confirmed I believe in October 2003, 
and I held that until I moved on to the White House. I served 
in a senior adviser capacity from September to October 2003.
    With respect to my position as chief of staff in the 
Criminal Division I went over, I believe, in November 2002. At 
the time, my job at the Treasury Department looked like it was 
going to be eliminated based on the new Department of Homeland 
Security. So I went over to work for Michael Chertoff.
    I left there to go to the Commerce Department in September 
2003, and that was because Secretary Chertoff was nominated and 
confirmed as a Third Circuit Judge.
    With respect to my position as Deputy Assistant Secretary, 
I held that position from November 2001 until I left to go to 
the Justice Department the following year.
    With respect my position as an Assistant U.S. Attorney in 
the Eastern District, I held that position from I believe 
October 1999 until I left in 2001.
    Prior to that, I was an Associate Independent Counsel for 
Ken Starr, and I held that position for approximately 16 
months.
    Senator Lieberman. Do you claim management experience from 
that work with the Independent Counsel's office?
    Ms. Myers. No, I do not.
    Senator Lieberman. But you do from the time as an Assistant 
U.S. attorney?
    Ms. Myers. That is correct, because there I was directly 
responsible and in charge of investigations and cases of 
different sizes, and I also was directly in charge, in certain 
instances, of more junior AUSAs as well as criminal 
investigators.
    Senator Lieberman. Thanks. We will go over that. I have 
only got about a minute more.
    I want to ask you each if you could give me a quick 
reaction to the special concern that I have within the area of 
immigration policy about the treatment of asylum seekers that 
the Commission on International Religious Freedom found that a 
majority of DHS facilities treated asylum seekers like 
criminals. That was pretty much the description of the 
nonpartisan commission. And that DHS did not have a consistent 
policy on treatment release and return of these asylum seekers 
to the countries that they were fleeing.
    I want to ask you if you are familiar with the Commission's 
finding and recommendations? Would you see formulation of a 
consistent policy on asylum seekers, and hopefully a better 
one, as a policy priority for your office? And a comparable 
question for you, Ms. Myers.
    Mr. Baker. Thank you, Senator. I am familiar with the 
Commission. In fact, two of my friends have been chairs of the 
Commission at various times. I have a lot of respect for both 
of them.
    You mentioned this report when we met. I have been able to 
at least get the executive summary off the website.
    It is very thoughtful. There are a lot of recommendations 
there. I will certainly look at them closely. I think that we 
ought to be able to have a constructive response to those 
suggestions.
    Senator Lieberman. Good. Ms. Myers, are you familiar with 
that?
    Ms. Myers. Yes, Senator, you also raised it in a meeting.
    Senator Lieberman. That is true, I made you familiar with 
it.
    Ms. Myers. I had the ability to look at the report and saw 
that there was a lot to be said about increasing transparency 
in our process and improving, in particular, ICE's role there. 
If confirmed, I would certainly look very hard at the 
recommendations made by the Commission with respect to ICE's 
role, not only with the treatment of asylum seekers but also to 
ensure that asylum seekers have the same parole criteria 
applied nationwide, which was something that was troubling to 
me that I was not aware of previously.
    Senator Lieberman. I appreciate that. The bottom line 
obviously is we should be treating like criminals people who 
probably are, or at least there is reasonable cause to believe 
are, and treating asylum seekers as people who probably have a 
sincere motivation to get into the country.
    Obviously, not all of them pass the test. But I think it is 
fundamental to our national principles, and I appreciate that 
both of you went back and looked at that. I look forward to 
continuing to work with you on it. Thank you.
    Chairman Collins. Thank you. Senator Voinovich.
    Senator Voinovich. Thank you, Madam Chairman.
    Ms. Myers, I have the same problem that Senator Collins and 
Senator Lieberman elluted to. I was a mayor for 10 years and a 
governor for 8 years, and I know management. I am really 
concerned about your management experience. ICE is a very large 
organization, with over 20,000 employees and a $4 billion 
budget.
    Senator Lieberman began to review your experience, but I 
have the list right here. You spent 2 years as Assistant 
District Attorney, then you spent about a year working with 
money laundering, 10 months as Chief of Staff for Mike Chertoff 
who then went onto the bench. Then you worked for a year and 3 
months with the Commerce Department. Can you tell me why you 
left the Commerce Department to go to the White House?
    Ms. Myers. I was asked to come serve the President in this 
capacity. It was explained to me that the White House thought 
it would be useful to have someone who had some additional 
subject matter expertise in particular areas that I am 
knowledgeable about, particularly law enforcement. So I was 
asked to help with the transition in Presidential personnel.
    Senator Voinovich. The problem I have is the longevity of 
your experiences. When you begin working at any job, it takes a 
couple of months to find out just what is going on. I have 
concerns about the short duration of your service in each of 
these positions. I would really like to sit down and talk with 
you.
    Madam Chairman, I think that we ought to have a meeting 
with Mike Chertoff, either privately or publicly, to ask him 
why he wants Ms. Myers for this position. She will be working 
for him, and obviously, he would not sign off on her unless he 
really thinks she can get the job done.
    But I would like to have him spend some time with us, 
telling us personally why he thinks you are qualified for the 
job. Because based on the resume, I do not think you are.
    Ms. Myers. Senator, I appreciate your concerns. There is no 
question that ICE is a large agency with significant 
challenges. One thing that I would point out is that during my 
time in Washington I have had the ability throughout this 
entire period to work with legacy Customs and legacy INS agents 
in different capacities, at the Justice Department, at the 
Commerce Department, at the Treasury Department. I will bring 
to this position a knowledge of those other departments and 
those other needs.
    I know what it is like to work side-by-side with a Customs 
agent trying a case. I also know what it is like to be 
supervising a Customs agent working on the national money-
laundering strategy. I also know what it is like to be at the 
Justice Department looking at how can we get more cooperation 
from INS and Customs, the legacy agencies, in human smuggling 
cases. I also know what it is like to be at the Commerce 
Department, doing dual use export controls and trying to 
partner effectively with Immigration and Customs Enforcement on 
their common mission to prevent export violations.
    And those things will serve me well, Senator, and ensure 
that we can bring ICE and make it more successful as we move 
along.
    Senator Voinovich. What is your management style?
    Ms. Myers. My management style is to ensure that employees 
know what the mission is of the Agency, know what is expected 
of them, and that they are required to live up to that.
    I will seek--I realize that I am not 80 years old. I have a 
few gray hairs, more coming. But I will seek to work with those 
who are knowledgeable in this area, who know more than I do. I 
will seek the knowledge of the experienced agents out in the 
field, that have worked cases in different ways and in 
different methods. I will partner closely with the other 
Federal law enforcement officials throughout the government.
    Based on my work in Washington, DC, and my work in New 
York, I am pleased to say that I have a close working 
relationship with most of the leading law enforcement officials 
in this town. And so I can call up the head of DEA and say how 
can we solve this problem? How can we get this done?
    I can call the head of the Criminal Division and say how 
can we partner more effectively with the Justice Department? 
And that is based on my work at the other agencies and the 
relationships and trust that I have built over time.
    I am confident that Secretary Chertoff recommended me based 
on my work at the Department. And if the Senate confirms me, I 
will not let you down.
    Senator Voinovich. Thank you.
    Mr. Baker, have you had a chance to look at the Second 
Stage Review?
    Mr. Baker. Yes I have, Senator,
    Senator Voinovich. What do you think of it?
    Mr. Baker. I think it is a very helpful step forward in 
integrating the Department.
    Senator Voinovich. As the nominee for Assistant Secretary 
of Policy of DHS, do you feel comfortable that you will have 
the organization to facilitate your ability to get the job 
done?
    Mr. Baker. The Secretary and the Deputy Secretary both are 
committed to having a successful Policy Office. They have the 
same vision that I do of its role in integrating the 
Department's policies and communicating those policies 
effectively to the components so that they can align their 
policies early on with departmental priorities.
    So I actually believe that their vision and mine are 
exactly the same.
    Senator Voinovich. Thank you.
    Chairman Collins. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman.
    First for Mr. Baker, relative to your qualifications, you 
have testified that you expect to play a central role in 
reviewing the Department's emergency planning and response and 
identifying lessons learned from Katrina. You are going to have 
to be looking at such matters as evacuation and plan 
development and execution, coordination between Federal, State 
and local government personnel, deployment of and coordination 
with National Guard and DOD personnel, development, use and 
purchase of interoperable communications equipment.
    You do not have any experience in those areas, do you?
    Mr. Baker. No, my experience is principally in national 
security. And I will say in the area of interoperability, most 
of my last 10 years of my private practice revolved around 
technology and the uses of technology, and many of the 
interoperability questions that we will struggle with are 
technical in nature.
    Senator Levin. In terms of the failure of the various units 
of government to have interoperability--interoperable 
equipment, those challenges specifically in those areas that 
they have not met, you do not have experience in that 
particular area?
    Mr. Baker. I have worked in--large parts of my practice 
concerned how to make cell phones and new telephone technology 
subject to wiretap laws, to accommodate the structure and 
protocols that are used in new forms of technology to operate 
in a way that works for law enforcement. So while it is not 
directly relevant, it is pretty close.
    Senator Levin. Any other areas of emergency response, do 
you have any experience in those areas?
    Mr. Baker. No.
    Senator Levin. In terms of whether or not grants should be 
risk-based or not, we have had a great dispute about that. This 
Committee has done some work relative to those formulas as to 
how those grants should be allocated, whether they ought to be 
risk-based, whether they ought to be apportioned in some other 
way. Do you have any views on that?
    Mr. Baker. I think they should be risk-based as much as 
they can be. It is difficult to entirely predict where the 
risks are. And if those predictions are made public, the risk 
can shift. So it is important to take risk into account in 
making those decisions.
    Senator Levin. Would you agree that there are smaller 
places that have great risks? Places that maybe you or the 
public have never heard of that might have high risks? Would 
you agree with that?
    Mr. Baker. I certainly could not rule that out. If we ruled 
something out, there is always the possibility that Al Qeada 
would say well, they have ruled that out, let us try that.
    Senator Levin. We have a small town in Michigan that is 
probably one of the largest entry points for commerce in the 
country, one of the top five. It has a bridge, it has a tunnel. 
It has a major chemical facility that is on the border with 
Canada with a very narrow river. It is called Port Huron. Have 
you ever heard of it?
    Mr. Baker. I have. I went to Edsel Ford High School, 
Senator.
    Senator Levin. Places like that around the country, that 
people have never heard of perhaps in the Agency, even though 
they are small and their names are not known--I am glad you do 
know that--but nonetheless have to be taken into account. Would 
you agree?
    Mr. Baker. I agree.
    Senator Levin. Ms. Myers, I, too, have questions in terms 
of your experience and qualifications, as to whether you meet 
the statutory test. I want to ask you about something that you, 
I believe, either knew about or should have known about however 
when you were the Chief of Staff for Michael Chertoff at the 
Criminal Division.
    There have been publicly released E-mails now of FBI agents 
expressing deep concerns at Guantanamo because of the behavior 
of certain Department of Defense personnel toward detainees. It 
was such a hotly debated issue between those personnel who were 
in the Department of Justice Criminal Division, that the FBI 
personnel said that they could not even stay there, could not 
participate. They used the word torture in one of those E-
mails. They used the word, in one of the E-mails that went back 
to the Department of Justice, they said that their concerns 
were so deep that they had to be raised, they had to be 
discussed, and that the FBI, they thought could not participate 
in any of the interrogations, of any of the dealings with the 
detainees.
    The discussions were so heated that sometimes phones were 
slammed down.
    Did you know anything about those disputes when you were 
there?
    Ms. Myers. No, I did not, Senator.
    Senator Levin. Who did? Chertoff did not know, you did not 
know, Fisher did not know. Who did? When we talk about 
management, this is not a common kind of event where there is 
some dispute over who is going to win a World Series game.
    This is where you have weekly meetings that are referred to 
in these E-mails, weekly meetings where these disputes were 
aired down at Guantanamo between Department of Justice 
personnel and the DOD. You have got four named people, Bruce 
Schwartz, Dave Namius, Laura Parsky, and Alice Fisher. Do you 
know those folks?
    Ms. Myers. I do, Senator.
    Senator Levin. They were involved. And they were horrified 
by what they saw. Who would have known inside the Department of 
Justice, if your boss did not know, Ms. Fisher did not know, 
and you did not know? We are talking about management. Who 
should have known? Who should have gotten those E-mails?
    Ms. Myers. Senator, I believe the E-mails you are referring 
to were produced later after the time----
    Senator Levin. But they were about events at the time you 
were there. They describe events at the time.
    Ms. Myers. That is correct, Senator.
    Senator Levin. Have you ever talked to either Fisher, 
Schwartz, Namius, or Parsky about these events? Or Chertoff?
    Ms. Myers. Senator, I was present during the preparation, 
some of the preparation of Secretary Chertoff and Ms. Fisher 
for their hearings. Other than that, I have not heard any 
discussions with respect to these matters.
    Senator Levin. And so those matters were discussed during 
preparations for those hearings?
    Ms. Myers. Senator, at the time of preparation for Ms. 
Fisher's hearings, I understand that the E-mails were 
available. And so at that time, the E-mail was discussed, it is 
my understanding.
    Senator Levin. What was the nature of the discussion?
    Ms. Myers. Senator, I do not recall what the nature the 
discussion was. I believe that it focused on what, if any, 
involvement any of these individuals had in this matter.
    Senator Levin. And what was the involvement?
    Ms. Myers. I believe Secretary Chertoff and Ms. Fisher 
could speak best for themselves about their involvement. I 
would tell you that I had no involvement, sir.
    Senator Levin. The first you ever heard about this is when 
you read it in the paper? Or what was the first time you ever 
heard about these disputes?
    Ms. Myers. Senator, I do not recall when I first learned 
about the existence of these E-mails.
    Senator Levin. I am talking about the disputes between 
Department of Justice personnel and the Department of Defense 
personnel whose tactics the Department of Justice personnel who 
are on Chertoff's staff were objecting to?
    Ms. Myers. Senator, I was not----
    Senator Levin. When did you first hear about those 
disputes? That is my question.
    Ms. Myers. Senator, I believe it was either in the paper or 
in preparation for Secretary Chertoff's hearings. When I was at 
the Department, my focus was on the Office of Administration, 
as well as some of the other more sensitive sections.
    Senator Levin. My time is up for this round. Thank you.
    Chairman Collins. The Senate has begun two roll call votes. 
I would suggest that we each ask one question and then will 
submit to the witnesses considerable additional questions for 
the record. The hearing record will remain open until 5 o'clock 
tomorrow for the submission of additional questions and other 
materials.
    Ms. Myers, a lot of individuals and organizations that have 
taken a look at the Department of Homeland Security have 
proposed the merger of ICE and the Customs and Border 
Protection. I understand that Secretary Chertoff has decided, 
at least for the time being, not to pursue a merger of ICE and 
CBP. The Inspector General has done a report that should be 
released shortly, which I understand will recommend the merger 
of ICE and CBP.
    What I have found and what I understand that the IG report 
has confirmed is that many field employees of the two agencies 
are very frustrated with what they view as the unnatural 
separation between the two organizations. In addition, there 
have been turf battles, budget fights, and a feeling among 
outside law enforcement that the current organization has not 
worked well.
    What is your view on combining the two agencies?
    Ms. Myers. Chairman Collins, I appreciate that question and 
the concerns regarding coordination that feed into that 
question. It is my belief that both agencies are under the same 
roof, under the same leadership, under Secretary Chertoff and 
that they should be coordinating well and properly on all of 
their day-to-day functions, as I should with CIS and other law 
enforcement parts of the Department.
    With respect to whether or not the two agencies should be 
merged, it is my understanding, as you noted, that the 
Secretary and the Department undertook a very thorough review 
of whether or not that made sense, and that they determined 
that it was in the best and most strategic interest of the 
Department for the two agencies to remain separate. But that 
there should be some additional steps taken to improve 
coordination. And the steps taken to improve coordination that 
the Department is suggesting, include an Office of Operation 
Coordinations which would coordinate a relationship not only 
between ICE and CBP but also between the CBP and Coast Guard or 
the CBP and the Secret Service, as well as the Policy Office 
that is hopefully going to be headed by Stewart Baker. That is 
a central policy making force that would unify relationships.
    I will tell you that I am very concerned about the reports 
I hear about the failure to have proper coordination. If 
confirmed, it is one of my top priorities to ensure that these 
agencies work well together and work side-by-side.
    I know Commissioner Bonner from our time at Treasury 
together, and I have already met with him twice to talk about 
ways that the agencies can improve intelligence sharing, can 
improve joint initiatives, and can work more effectively 
together. I will send that message to the field, as well.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Ms. Myers, as you well know, ICE has a C as well as an I in 
it. There are some observers who think that thus far the 
Department has not given enough priority to the customs 
enforcement parts of it. I wondered what your feelings are 
about that and what priorities you would have if you take this 
position for customs enforcement?
    Ms. Myers. Well, certainly the C part of the mission, the 
customs part, is the part that I was most familiar with from my 
previous experience. One of my highest priorities will be to 
ensure that ICE's important customs missions are not diminished 
or neglected in any way.
    In particular, I am interested in the work on anti-money-
laundering as well as strategic arms. I think we should look to 
see where we can fold in immigration enforcement with those. If 
we are bringing a money-laundering case, is there an 
immigration angle? If it is an immigration case, is there a 
money-laundering angle?
    We should look at, for example, are there individuals who 
are in this country illegally who are trying to gain access to 
our sensitive goods and technologies? That is a way, again, 
that our immigration mission and our customs mission coincide 
and intersect.
    But I am absolutely committed to those missions and have 
enjoyed working in those for a number of years.
    Senator Lieberman. Good. Thank you.
    Chairman Collins. Senator Voinovich.
    Senator Voinovich. There is a recently released audit 
noting that the Agency has been plagued with financial 
management issues and that ICE, which has had a lengthy hiring 
freeze as a result of financial difficulties, has asked 
Congress to reprogram several hundred million dollars in the 
last year alone. Are you familiar with these issues?
    Ms. Myers. Yes, I am, Senator.
    Senator Voinovich. Do you understand that will be one of 
the challenges you will face if you are confirmed?
    Ms. Myers. No question, Senator. Absolutely. I have already 
met not only with the CFO for the Department but also ICE's 
Acting CFO. And financial management would be one of my top 
priorities to focus on.
    In trying to figure out what went wrong, how ICE got where 
they are, it appeared to me that there were really three core 
reasons that they got in the situation they are. And I think 
those provide guidance for how we can move forward then more 
effectively.
    First, as has been previously noted, the initial allocation 
of funds within the Department was not necessarily even. And so 
ICE did not receive the proper allocation of funding in the 
beginning. That has been corrected, thanks to the help of 
Congress.
    I think the second reason is that ICE was still getting up 
to speed, in terms of having top financial managers in place in 
the organization. To this day, ICE does not have a permanent 
chief financial officer.
    If confirmed, I would make sure to do that immediately and 
to ensure that proper financial management practices are 
followed.
    The third reason is ICE's mission has been stretched beyond 
belief. Last year there were more removals than ever before. 
They are continuing to do more and more while working with 
limited resources. So that has been a challenge that the Agency 
has had to get its arms around.
    Senator Voinovich. Thank you.
    Chairman Collins. Senator Levin.
    Senator Levin. Thank you. This is a question which follows 
up on some of Senator Lieberman's concerns relative to asylees.
    Due to delays in our immigration process, a country's 
situation can change from the time that an alien flees his home 
country to the United States and when he finally receives a 
hearing before a judge.
    One such case relates to Iraq. We have got about 1,000 
Iraqi families in this country who came here legally seeking 
asylum in the 1990s. They fled Saddam Hussein, and they had 
good reasons to flee Saddam Hussein. They requested asylum when 
they got to this country.
    Then in 2003, with Saddam Hussein gone, the question is are 
they still going to be treated according to the law which 
existed and the facts which existed at the time they fled? Or 
are they now going to be shipped back to Iraq where there are 
plenty of dangers? That is not the main point. The main point 
is they came here legally, sought asylum, set down roots, 
raised families, opened businesses. I am talking about people 
against whom there is no evidence of improper or illegal 
conduct.
    Now what? Are we going to treat them fairly? Or are we 
going to say that we are going to uproot you because now Saddam 
is gone, and send you back to a country where again there is 
plenty of dangers for them. Many of them would have to go back 
to areas which are dangerous.
    But beyond that, when they have abided by all of our rules, 
and when the reasons for their coming would have qualified them 
for asylum at the time they came. What rules should apply to 
them?
    Ms. Myers. Senator, your question points out kind of a 
fundamental problem of things taking too long once people get 
here and apply for the proper avenues of relief.
    It is my understanding that ICE has a policy of evaluating 
circumstances in cases like this on a case-by-case basis, to 
make sure we are treating people fairly and not penalizing them 
for the slowness of our government processes.
    If confirmed, I would make sure that is the procedure that 
is followed.
    Chairman Collins. Senator Levin, the time has expired in 
the vote. Accordingly, we are going to have to end the hearing, 
but I would invite you to submit additional questions for the 
record.
    I want to thank our witnesses for being here today.
    This hearing is now adjourned.
    [Whereupon, at 12:04 p.m., the Committee was adjourned.]




                            A P P E N D I X

                              ----------                              


                  PREPARED STATEMENT OF SENATOR AKAKA
    Thank you Chairman Collins. I wish to add my welcome to Mr. Baker, 
Ms. Myers, and their families and friends.
    You are both here because you wish to continue your careers in 
public service by serving as Assistant Secretaries in the Department of 
Homeland Security (DHS). These positions demand individuals who have 
demonstrated extensive executive level leadership and the ability to 
manage a sizable budget and diverse workforce. Mr. Baker, if confirmed, 
you will be the first DHS Assistant Secretary for Policy, and you will 
help define the role of the Office of Policy.
    Ms. Myers, you have been nominated to lead Immigration and Customs 
Enforcement, an agency that is currently facing significant financial 
and human resource management challenges.
    While every nomination considered by the Senate is important, I 
believe that today's hearing will be watched carefully by the American 
people, who are looking to this Committee to make sure we ask the 
appropriate, and sometimes tough, questions. The people of Hawaii, like 
all Americans, want to make sure that those leading DHS have the 
necessary experience and qualifications.
    The creation of DHS in 2003 was the largest reorganization of the 
Federal Government since the Department of Defense was established in 
1947. The merging of 22 legacy agencies into a single agency has 
created management challenges that DHS will face for years to come. 
Because of these significant challenges, DHS needs strong leaders. A 
qualified candidate must possess extensive experience managing people 
and budgets in addition to having experience in immigration or law 
enforcement or intelligence.
    I am especially concerned about the current state of ICE, which is 
the second largest Federal law enforcement agency with a $4 billion 
budget and over 15,000 employees in over 400 offices around the world.
    ICE has extraordinary reach, extraordinary responsibilities for our 
national security, and extraordinary problems.
    Financial difficulties have resulted in hiring freezes and 
reductions in training, bonuses, and travel. ICE's financial crisis has 
resulted in DHS reprogramming $500 million in FY 04 and FY 05 funds and 
requesting an additional $267 million in the April 2005 emergency 
supplemental. Despite assurances that ICE's financial problems have 
been resolved, DHS Inspector General Richard Skinner testified in July 
2005 that ICE cannot properly account for millions of dollars every 
month due to its deficient financial management system. This financial 
crisis has had an adverse impact on the readiness and morale of the ICE 
workforce.
    ICE needs strong, experienced leadership to repair these management 
problems.
    Mr. Baker, the Administration has submitted legislation to the 
Congress that this Committee is now considering which would create the 
position of an Undersecretary for Policy. According to Secretary 
Chertoff's transmittal letter to the Congress on his proposal, dated 
July 13, 2005, the new Office of Policy ``will lead a unified, mission-
focused policy approach'' and will include a number of existing units, 
such as the Office of International Affairs, the Special Assistant to 
the Secretary for Private Sector Coordination, the Border and 
Transportation Security Policy and Planning Office, elements of the 
Border and Transportation Security Office of International Enforcement, 
the Homeland Security Advisory Committee, and the Office of Immigration 
Statistics. In addition, the Secretary is proposing to add a strategic 
policy planning office and a refugee policy coordinator.
    This is an enormous range of new responsibilities and will require 
someone with extensive management experience and vision.
    I would argue that the key focus of this office should be on 
strategic planning. Given the nature of this office should be on 
strategic planning. Given the nature of the Department's enormous size 
and breadth of responsibilities, someone is needed who can provide 
focus and direction to the mission of preventing and responding to 
terrorist attacks and natural disasters.
    Mr. Baker, you are being nominated for the position of Assistant 
Secretary with the expectation of moving into the Undersecretary 
position should the Congress pass the reform proposal. One of the 
issues this Committee will have to address is whether you will need to 
be reconfirmed at a later date for that higher position should you be 
confirmed for the Assistant Secretary position.
    One of the lessons learned from the Hurricane Katrina response is 
that the senior officials of an agency should have demonstrated 
leadership skills. The positions of Assistant Secretary for ICE and 
Assistant Secretary for Policy are no exception.
    I would like to draw the attention of my colleagues to one measure 
of leadership skills: The standards the Office of Personnel Management 
has developed for the government's career Senior Executive Service 
(SES).
    To qualify for an SES position, a candidate must possess the 
following five executive qualifications:

    <bullet>  Leading Change;
    <bullet>  Leading People;
    <bullet>  Being Results Driven;
    <bullet>  Having Business Acumen; and
    <bullet>  Building coalitions/Communications.

    SES candidates demonstrate these qualifications through experience 
in key executive skills such as leading others to rapidly adjust 
organizational behavior and work methods; supervising and managing a 
diverse workforce; developing strategic human capital management plans; 
establishing performance standards and plans; managing the budgetary 
process; overseeing the allocation of financial resources; and 
developing and maintaining positive working relationships with internal 
groups and external groups such as Congress, the Office of Management 
and Budget, and the White House.
    These qualifications and experiences help ensure that the Federal 
Government's senior executives have the ability to establish a clear 
vision for the organization and to drive others to succeed. While 
political appointees are not required to meet these qualifications, I 
believe it would be difficult for an agency head to be successful 
without them.
    I look forward to this opportunity to hear from Mr. Baker and Ms. 
Myers. Thank you Madam Chairman.
[GRAPHIC] [TIFF OMITTED] T4237.001

[GRAPHIC] [TIFF OMITTED] T4237.002

[GRAPHIC] [TIFF OMITTED] T4237.005

[GRAPHIC] [TIFF OMITTED] T4237.006

[GRAPHIC] [TIFF OMITTED] T4237.007

[GRAPHIC] [TIFF OMITTED] T4237.008

[GRAPHIC] [TIFF OMITTED] T4237.009

[GRAPHIC] [TIFF OMITTED] T4237.010

[GRAPHIC] [TIFF OMITTED] T4237.011

[GRAPHIC] [TIFF OMITTED] T4237.012

[GRAPHIC] [TIFF OMITTED] T4237.013

[GRAPHIC] [TIFF OMITTED] T4237.014

[GRAPHIC] [TIFF OMITTED] T4237.015

[GRAPHIC] [TIFF OMITTED] T4237.016

[GRAPHIC] [TIFF OMITTED] T4237.017

[GRAPHIC] [TIFF OMITTED] T4237.018

[GRAPHIC] [TIFF OMITTED] T4237.019

[GRAPHIC] [TIFF OMITTED] T4237.020

[GRAPHIC] [TIFF OMITTED] T4237.021

[GRAPHIC] [TIFF OMITTED] T4237.022

[GRAPHIC] [TIFF OMITTED] T4237.023

[GRAPHIC] [TIFF OMITTED] T4237.024

[GRAPHIC] [TIFF OMITTED] T4237.025

[GRAPHIC] [TIFF OMITTED] T4237.026

[GRAPHIC] [TIFF OMITTED] T4237.027

[GRAPHIC] [TIFF OMITTED] T4237.028

[GRAPHIC] [TIFF OMITTED] T4237.029

[GRAPHIC] [TIFF OMITTED] T4237.030

[GRAPHIC] [TIFF OMITTED] T4237.031

[GRAPHIC] [TIFF OMITTED] T4237.032

[GRAPHIC] [TIFF OMITTED] T4237.033

[GRAPHIC] [TIFF OMITTED] T4237.034

[GRAPHIC] [TIFF OMITTED] T4237.035

[GRAPHIC] [TIFF OMITTED] T4237.036

[GRAPHIC] [TIFF OMITTED] T4237.037

[GRAPHIC] [TIFF OMITTED] T4237.038

[GRAPHIC] [TIFF OMITTED] T4237.039

[GRAPHIC] [TIFF OMITTED] T4237.040

[GRAPHIC] [TIFF OMITTED] T4237.041

[GRAPHIC] [TIFF OMITTED] T4237.042

[GRAPHIC] [TIFF OMITTED] T4237.043

[GRAPHIC] [TIFF OMITTED] T4237.044

[GRAPHIC] [TIFF OMITTED] T4237.045

[GRAPHIC] [TIFF OMITTED] T4237.046

[GRAPHIC] [TIFF OMITTED] T4237.047

[GRAPHIC] [TIFF OMITTED] T4237.048

[GRAPHIC] [TIFF OMITTED] T4237.049

[GRAPHIC] [TIFF OMITTED] T4237.050

[GRAPHIC] [TIFF OMITTED] T4237.051

[GRAPHIC] [TIFF OMITTED] T4237.052

[GRAPHIC] [TIFF OMITTED] T4237.053

[GRAPHIC] [TIFF OMITTED] T4237.054

[GRAPHIC] [TIFF OMITTED] T4237.055

[GRAPHIC] [TIFF OMITTED] T4237.003

[GRAPHIC] [TIFF OMITTED] T4237.004

[GRAPHIC] [TIFF OMITTED] T4237.056

[GRAPHIC] [TIFF OMITTED] T4237.057

[GRAPHIC] [TIFF OMITTED] T4237.058

[GRAPHIC] [TIFF OMITTED] T4237.059

[GRAPHIC] [TIFF OMITTED] T4237.060

[GRAPHIC] [TIFF OMITTED] T4237.061

[GRAPHIC] [TIFF OMITTED] T4237.062

[GRAPHIC] [TIFF OMITTED] T4237.063

[GRAPHIC] [TIFF OMITTED] T4237.064

[GRAPHIC] [TIFF OMITTED] T4237.065

[GRAPHIC] [TIFF OMITTED] T4237.066

[GRAPHIC] [TIFF OMITTED] T4237.067

[GRAPHIC] [TIFF OMITTED] T4237.068

[GRAPHIC] [TIFF OMITTED] T4237.069

[GRAPHIC] [TIFF OMITTED] T4237.070

[GRAPHIC] [TIFF OMITTED] T4237.071

[GRAPHIC] [TIFF OMITTED] T4237.072

[GRAPHIC] [TIFF OMITTED] T4237.073

[GRAPHIC] [TIFF OMITTED] T4237.074

[GRAPHIC] [TIFF OMITTED] T4237.075

[GRAPHIC] [TIFF OMITTED] T4237.076

[GRAPHIC] [TIFF OMITTED] T4237.077

[GRAPHIC] [TIFF OMITTED] T4237.078

[GRAPHIC] [TIFF OMITTED] T4237.079

[GRAPHIC] [TIFF OMITTED] T4237.080

[GRAPHIC] [TIFF OMITTED] T4237.081

[GRAPHIC] [TIFF OMITTED] T4237.082

[GRAPHIC] [TIFF OMITTED] T4237.083

[GRAPHIC] [TIFF OMITTED] T4237.084

[GRAPHIC] [TIFF OMITTED] T4237.085

[GRAPHIC] [TIFF OMITTED] T4237.086

[GRAPHIC] [TIFF OMITTED] T4237.087

[GRAPHIC] [TIFF OMITTED] T4237.088

[GRAPHIC] [TIFF OMITTED] T4237.089

[GRAPHIC] [TIFF OMITTED] T4237.090

[GRAPHIC] [TIFF OMITTED] T4237.092

[GRAPHIC] [TIFF OMITTED] T4237.091

[GRAPHIC] [TIFF OMITTED] T4237.093

[GRAPHIC] [TIFF OMITTED] T4237.094

[GRAPHIC] [TIFF OMITTED] T4237.095

[GRAPHIC] [TIFF OMITTED] T4237.096

[GRAPHIC] [TIFF OMITTED] T4237.097

[GRAPHIC] [TIFF OMITTED] T4237.098

[GRAPHIC] [TIFF OMITTED] T4237.099

[GRAPHIC] [TIFF OMITTED] T4237.100

[GRAPHIC] [TIFF OMITTED] T4237.101

[GRAPHIC] [TIFF OMITTED] T4237.102

[GRAPHIC] [TIFF OMITTED] T4237.103

[GRAPHIC] [TIFF OMITTED] T4237.104

[GRAPHIC] [TIFF OMITTED] T4237.105

[GRAPHIC] [TIFF OMITTED] T4237.106

[GRAPHIC] [TIFF OMITTED] T4237.107

[GRAPHIC] [TIFF OMITTED] T4237.108

[GRAPHIC] [TIFF OMITTED] T4237.109

[GRAPHIC] [TIFF OMITTED] T4237.110

[GRAPHIC] [TIFF OMITTED] T4237.111

[GRAPHIC] [TIFF OMITTED] T4237.112

[GRAPHIC] [TIFF OMITTED] T4237.113

[GRAPHIC] [TIFF OMITTED] T4237.114

[GRAPHIC] [TIFF OMITTED] T4237.115

[GRAPHIC] [TIFF OMITTED] T4237.116

[GRAPHIC] [TIFF OMITTED] T4237.117

[GRAPHIC] [TIFF OMITTED] T4237.118

[GRAPHIC] [TIFF OMITTED] T4237.119

[GRAPHIC] [TIFF OMITTED] T4237.120

[GRAPHIC] [TIFF OMITTED] T4237.121

[GRAPHIC] [TIFF OMITTED] T4237.122

[GRAPHIC] [TIFF OMITTED] T4237.123

[GRAPHIC] [TIFF OMITTED] T4237.124

[GRAPHIC] [TIFF OMITTED] T4237.125

[GRAPHIC] [TIFF OMITTED] T4237.126

[GRAPHIC] [TIFF OMITTED] T4237.127

[GRAPHIC] [TIFF OMITTED] T4237.128

[GRAPHIC] [TIFF OMITTED] T4237.129

[GRAPHIC] [TIFF OMITTED] T4237.130

[GRAPHIC] [TIFF OMITTED] T4237.131

[GRAPHIC] [TIFF OMITTED] T4237.132

[GRAPHIC] [TIFF OMITTED] T4237.133

[GRAPHIC] [TIFF OMITTED] T4237.134

[GRAPHIC] [TIFF OMITTED] T4237.135

[GRAPHIC] [TIFF OMITTED] T4237.136

[GRAPHIC] [TIFF OMITTED] T4237.137

[GRAPHIC] [TIFF OMITTED] T4237.138

[GRAPHIC] [TIFF OMITTED] T4237.139

[GRAPHIC] [TIFF OMITTED] T4237.140

[GRAPHIC] [TIFF OMITTED] T4237.141

[GRAPHIC] [TIFF OMITTED] T4237.142

[GRAPHIC] [TIFF OMITTED] T4237.143

[GRAPHIC] [TIFF OMITTED] T4237.144

[GRAPHIC] [TIFF OMITTED] T4237.145

[GRAPHIC] [TIFF OMITTED] T4237.146

[GRAPHIC] [TIFF OMITTED] T4237.147

                                 <all>
</pre></body></html>
